12377 Merit Drive
Suite 880
Dallas, TX 75251
(214) 741-6260

By Federal Express and Electronic Filing
December 18, 2019
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street N.E.
Washington, District of Columbia 20543
RE:

The Inclusive Communities Properties Project, Inc. v. Lincoln Property Company, et al.
No. 19-497

Dear Mr. Harris:
I am counsel of record in the above-captioned case, which is currently pending before this
Court on a petition for writ of certiorari. The petition was filed on October 14, 2019, and was
placed on the docket on October 17, 2019. The response to the petition is due on January 8, 2020.
Respondents intend to file a joint response to the petition. In accordance with this Court’s
Rule 30.4, respondents respectfully request a 35-day extension of time—to and including February
11, 2020—in which to file the response. This extension is necessary due to the heavy press of other
matters (including two petitions for certiorari in this Court) and to permit respondents to address
the briefs of any amicus curiae who file in support of petitioner.
Counsel for petitioner does not oppose this request.
Respectfully,

Charles “Chad” Baruch
copies: Counsel of record (see attached service list)

Mr. Harris
December 18, 2019
Page 2
SERVICE LIST:
The Inclusive Communities Project, Inc. v Lincoln Property Company, et al.
Jennifer Owen
jowen@higierallen.com
Higier Allen & Lautin, P.C.
2711 N. Haskell Avenue, Suite 2400
Dallas, Texas 75204
Arthur E. Anthony
aanthony@lockelord.com
Locke Lord LLP
2200 Ross Avenue, Suite 2800
Dallas, Texas 75201
(214) 740-8000
Attorneys for Appellee CPF PC
Riverwalk LLC
Tonya M. Gray
tonyagray@huntonak.com
Hunton Andrews Kurth LLP
1445 Ross Avenue, Suite 3700
Dallas, Texas 75201
(214) 659-4545
Attorney for Appellees Legacy
Multifamily North III LLC and HLI
White Rock LLC
Valeri C. Williams
valeri.williams@wilsonelser.com
Wilson Elser Moskowitz Edelman & Dicker, LLP
901 Main Street, Suite 4800
Dallas, Texas 75201
(214) 698-8053
Attorney for Appellees Brick Row Apartments, L.L.C.
Michael M. Daniel
daniel.michael@att.net
Daniel & Besheara, P.C.
3301 Elm Street
Dallas, Texas 75226

Mr. Harris
December 18, 2019
Page 3
(214) 939-9230
Attorney for The Inclusive Communities Project, Inc.

